                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL                          -
                                                           OFFICE OF INVESTIGATIONS

                                        MEMORANDUM OF INVESTIGATION

     Case Number: I09070041                                                                    Page 1-of 1



             The OIG initiated an investigation based on information that an individual1 received duplicate
             payments from an NSF awardee2 for his travel expenses.

             The awardee confirmed that it had mistakenly processed the individual's travel expenses twice,
             which resulted in an overcharge3to NSF. The awardee returned the funds4 to NSF.

             The individual acknowledged receiving duplicate payments form the awardee. The individual
             returned the money5to the awardee. Accordingly, this investigation is closed.




11
I'
         Sign I date

    NSF OIG Form 4 (1 1/02)
                              1
                              I
                                  -      Investigator

                                                                      I
                                                                      I
                                                                                            Date

                                                                                                                  11
                                                                                                                  11
